MIDFLORIDA Credit Union
P.O. Box 8008
Lakeland, FL 33802

VISA SECURED

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of ____________ . You can contact us toll free at (866) 913-3733 or P.O. Box 8008, Lakeland, FL 33802 to inquire
if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR)
for Purchases, Cash Advances,
and Balance Transfers

14.99%

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new balance by the due date
each month. We will begin charging interest on cash advances and balance transfers
on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at http://
www.consumerfinance.gov/learnmore

FEES:
Set-up and Maintenance Fees

- Application Fee:
- Annual Fee:
- Account Set-up Fee:
- Participation Fee:
- Additional Card Fee:
- Account Maintenance Fee:

NOTICE: Some of these set-up and maintenance fees will be assessed before you
begin using your card and will reduce the amount of credit you initially have available.
For example, if you are assigned the minimum credit limit of $500.00, and your
annual fee is $25.00, your initial credit available will be $475.00.

None
$25.00
None
None
None
None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

$10.00 or 1% of the amount of each transfer, whichever is greater
$20.00 or 2% of the amount of each cash advance, whichever is greater
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

Up to $25.00 if your payment is late
None
Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Overdraft Protection: If you have overdraft protection linked to your credit card account, overdrafts will be charged to your
card at the cash advance APR of 14.99% with the corresponding daily period rate of 0.041068%. In addition, a $10.00 fee will
also be added and will accrue interest at the same rates.
Snapshot Photo Card Fee: First card free for each user. $5.99 per individual card thereafter.

LASER FPDF FI19073 Rev 5-2019

page 1 of 5

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY
CREDIT CARD ISSUED TO YOU OR THOSE DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT
UNION" MEANS MIDFLORIDA CREDIT UNION OR ITS SUCCESSORS.

VISA SECURED CREDIT CARD AGREEMENT
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.

Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may
block the use of your Card in certain countries or geographic areas. We will
have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your Card
to access your account, and all sums advanced will be added to your account
balance. In the event a use of your PIN constitutes an Electronic Funds
Transfer, the terms and conditions of your Electronic Funds Transfer
Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or
fees; (c) collection costs and attorney's fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you.
Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this
Agreement. We may decline any transaction that we believe to be illegal
under applicable law, including but not limited to any transaction involving or
relating to any gambling activity. You agree that we will have no liability or
responsibility for any such use by you or any authorized user(s); or for
declining any such transaction. You further agree to indemnify and hold us
harmless from any suits, liability, damages or adverse action of any kind that
results directly or indirectly from such illegal use. You promise to pay us any
and all amounts owing on your Card for any transactions made by you, even
if the transaction is determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction
under the account.
You request an additional card for an authorized user in the name of:
________________________________________________________
LASER FPDF FI19073 Rev 5-2019

Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay for
all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If someone
else is authorized to use your account and you want to end that person's
privilege, you must notify us in writing, and if he or she has a Card, you must
return that Card with your written notice for it to be effective.
Ownership of Card. Your Card remains our property and may be cancelled by
us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance
transfers or other advances, and subtract any payments, unpaid interest
charges, and unpaid late charges. This gives us the daily balance. Then, we
add up all the daily balances for the billing cycle and divide that by the number
of days in the billing cycle. We then multiply that by the periodic rate
corresponding to the Annual Percentage Rate on your account. If you have
different rates for purchases, cash advances or balance transfers, separate
average daily balances for each will be calculated and the appropriate periodic
rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of the new balance each month by the
date on which the payment is due. Otherwise, the new balance of your account,
and subsequent advances from the date they are posted to the account, will be
subject to an Interest Charge. You cannot avoid Interest Charges on cash
advances and balance transfers; even if you pay the entire cash advance
balance or balance transfer balance by the payment due date, you will incur the
Interest Charges accrued from the date the cash advance or balance transfer is
posted to your account.
Loss of Grace Period: If you usually pay your purchases in full within the
grace period each month to avoid a finance charge, transferring a balance to
your account will eliminate the grace period unless you pay the new balance
each month.
Fees. In addition to the Interest Charges set forth above, you agree to also pay
any and all fees that you incur as disclosed to you on your Truth-in- Lending
Statement or similar disclosures (as may be amended from time to time), or as
disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree
to notify us immediately if your Card is ever lost or stolen or if an unauthorized
use may have occurred. "Unauthorized use" means the use of the Card by
someone other than you who does not have actual, implied or apparent
authority for such use, and from which you receive no benefit. The telephone
number to call is (877) 602-9023. You agree to follow up your call with notice in
writing to us at: P.O. Box 8008, Lakeland, FL 33802. You also agree to assist us
in determining the facts, circumstances and other pertinent information relating
to any loss, theft or possible unauthorized use of your Card and comply with
such procedures as we may require in connection with our investigation. You
will be liable for any unauthorized use only if we can prove that you were
negligent in your use or handling of your Card, or if we can prove that you used
your Card fraudulently.

Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment is
received by us on a business day at the address and by the time designated on
the billing statement, it will be credited to your account on the date of receipt. If
payment is made at any location other than the address designated on the
periodic statement, credit for
such payment may be delayed up to five (5) days.
COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.
page 2 of 5
Payments will be applied in any order we determine, subject to applicable law.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY
CREDIT CARD ISSUED TO YOU OR THOSE DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT
UNION" MEANS MIDFLORIDA CREDIT UNION OR ITS SUCCESSORS.

VISA SECURED CREDIT CARD AGREEMENT
Default; Acceleration; Credit Suspension; Collection Costs. You will be in
default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements
you have with us; (3) if you die; (4) if you file a petition in bankruptcy or have
a bankruptcy petition filed against you, or if you become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to
take any of your funds held by us via legal process or if you have a judgment
or tax lien filed against you; (6) if you make any false, inaccurate, or
misleading statements in any credit application or credit update; or (7) if we, in
good faith, believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any shares that were given as security for your
account may be applied towards what you owe. You agree to pay all
reasonable costs of collection, including court costs and attorney's fees, and
any costs incurred in the recovery of the Card, subject to applicable law. Even
if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us or you cause
a loss to us. We shall not be liable to you in any regard in connection with
such suspension of services.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may withdraw
or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.
Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the
purpose of updating your credit status. Your failure to provide such
information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit standing
when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureau and creditors who inquire
about your credit standing.
Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. All transactions processed outside
of the United States (which may include internet transactions) will be charged
a foreign transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).

at any time, by written notice, subject to applicable law. Use of the Card
constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still need
to make the minimum scheduled payment by the next scheduled due date to
keep your account current. We may accept late payments, partial payments,
checks or money orders marked "payment in full" and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any merchandise
or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity
may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall be
located in the county and state in which we are primarily located. Operating
regulations of Visa may also apply. This Agreement is the contract that
applies to all transactions even though the sales, cash advance, convenience
check, credit or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.

Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
LASER FPDF FI19073 Rev 5-2019
page 3 of 5
terms of this Agreement, including the method of calculating the periodic rate,

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).

1.

NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.

In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice orally, please call 1-877-528-5376, 24 hours a day, 7 days a week.
2. This loan will not be secured by a consensual lien on shares or deposits in any of your accounts unless you agree to establish an account in connection
with this loan (“Secured Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any cross-collateralization
provision contained in your loan or account documents will not apply to the Secured Account or your other share or deposit accounts for any loan subject
to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to apply the
sums in the Secured Account or any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.

4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to
these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms
and conditions of the consumer credit contract shall remain in full force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE

This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:

1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:

• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:

• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

LASER FPDF FI19073 Rev 5-2019

page 4 of 5

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

VISA CREDIT CARD SECURITY AGREEMENT, PLEDGE, AND ASSIGNMENT OF SHARES AND
DEPOSITS ("Pledge") AMENDMENT TO CREDIT CARD AGREEMENT
BORROWER'S NAME

ACCOUNT NUMBER

CO-BORROWER'S NAME

In this Pledge, "you" "your" and "yours" shall mean the above-named borrower. "We", "us", and "Credit Union" shall mean
MIDFLORIDA Credit Union. If approved, your Visa Secured Credit Card ("Card") identified above is secured by your Secured
Deposit Account. Your Secured Deposit Account ("Account") is the deposit account that you agree to establish or designate at
the Credit Union to secure all obligations that you incur in connection with the Card.
The account number of the Secured Deposit Account is: _________________________.
The following terms and conditions apply:
1. Security Interest. By signing below, you pledge, assign, and grant a security interest in all shares and deposits, including
interest, in the Secured Deposit Account whether now or hereafter deposited or accumulated in said account to secure all
indebtedness and obligations whether now owing or later incurred under the Card, including, but not limited to, any and all
expenses and reasonable attorney's fees that the Credit Union incurs in order to enforce this Pledge or to collect on the Card.
We also have a lien on the Secured Deposit Account under applicable law. The granting of this security interest is a condition
for the issuance of your Card.
You must maintain in the Secured Deposit Account an amount equal to 100% of the credit limit of the Card ("Secured Amount").
You may not withdraw amounts from the Secured Deposit Account for as long as there is a balance owing on your
Card, or until the Credit Union agrees to release all or part of the pledged amount, if such withdrawal would cause the
account balance to fall below the Secured Amount.
2. Cross-Collateralization; Additional Security. You also agree to provide additional security (either of deposits or otherwise)
if we so request. In addition, your Card is secured by all other shares you have in any individual or joint account with the Credit
union, except for shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law if given as security. These other shares may be withdrawn unless you are in default under this Pledge or
your Credit Card Agreement. Collateral securing other loans you have with the Credit Union may also secure this loan, except
that a dwelling and non-purchase-money household goods will never be considered as security for your Card, notwithstanding
anything to the contrary in any other agreement.
3. Enforcement of Security Interest. You authorize the Credit Union to apply the balance in your Secured Deposit Account
and your other individual or joint share accounts to pay any amounts due on your Card if you should default.
4. Additional Agreements. In addition to this Pledge, you agree to abide by the terms of the Deposit Account/Signature Card,
Credit Application, Visa Credit Card Agreement, and any other documents executed by you in connection with the Card
("Additional Agreements"). Those Additional Agreements are hereby incorporated as if fully set forth herein, and this Pledge is
hereby incorporated into each of the Additional Agreements as if fully set forth therein.
5. Governing Law. This Pledge shall be governed by the laws of the State of Florida.
6. Credit Card Agreement. All other provisions of your Credit Card Agreement remain in full force and effect.
7. Military Lending Act. Notwithstanding any provision above, at any time(s) during which the Military Lending Act applies to
this account: (a) only shares deposited into the Secured Deposit Account after the card is established will secure this Card, and
no other accounts will secure this Card; (b) the “Cross-Collateralization; Additional Security” provision does not apply; and (c)
any provision in any agreement or other document provided in connection with your Card that contradicts the Military Lending
Act shall have no force or effect.
8. Suspension of electronic services and access to share or deposit accounts. Subject to applicable law, we may
suspend some or all electronic services and access to your checking or other account(s) if you become delinquent on any of
your credit card or deposit obligations to us or you cause a loss to us. We shall not be liable to you in any regard in connection
with such suspension of services.
BORROWER'S SIGNATURE

X

LASER FPDF FI19073 Rev 5-2019

DATE

CO-BORROWER'S SIGNATURE

DATE

X

page 5 of 5

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

